                                                  NATIONAL
                                                   OFFICE OF SCIENCE
                                                             INSPECTOR
                                                                     FOUNDATION
                                                                       GENERAL
 z
  .                                                  OFFICE OF INVESTIGATIONS

 $o*j@
  4

     ,, .                                   CLOSEOUT MEMORANDUM

Case Number: I04040013                                                                       Page 1 of 1
                                                                             I




         On March 9,2004, the Inspector General received an anonymous complaint that two employees
                           '
         (employee 1 and employee 22)were operating private businesses from the National Science
         Board (NSB) Office. After interviewing several employees (both current and former) of the NSB
         office and the subject employee, OIG found that there were several inconsistencies in what the
         interviewees state concerning employee 1's outside business. There is no evidence that
         employee 2 is operating a business from the NSB office.

         The preliminary case was closed and an investigation was initiated to fully investigate the
         allegation regarding employee 1.

         OIG contacted the Division of Information Systems (DIS)~to request an email system download
         of the employee's office computer. OIG also contacted the NSB office for a fax log. After
         reviewing the employee's email and determining that most faxes could be tracked to official NSB
         business, OIG can find no evidence that the subject employee is operating a business from the
         NSB office. Accordingly, this case is closed.




          I redacted
          2
              redacted
          3
              redacted



NSF 01G Form 2 ( 1 1/02)
